rT

C@OCKLE

F E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1137

CALIFORNIA PARENTS FOR THE EQUALIZATION
OF EDUCATIONAL MATERIALS, et al.,
Petitioners,

v.

TOM TORLAKSON, in his official capacity as
State Superintendent of Public Instruction, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the THE STATE
RESPONDENTS’ BRIEF IN OPPOSITION in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 7978 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

My Comm. Exp. September 5, 2023

 

ee MOTARY-State of Nebraska v Chi,
i RENEE u. GOSS 9. ‘

Notary Public Affiant 40731
